  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




MEDICARE PAYMENTS TO CONNECTICUT
  PHYSICIANS FOR FULL VIALS OF
   HERCEPTIN WERE GENERALLY
            CORRECT




    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                        David Lamir
                                                  Acting Regional Inspector
                                                          General

                                                          June 2013
                                                        A-01-12-00515
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                             INTRODUCTION

WHY WE DID THIS REVIEW

When a physician administers a dose of a drug from a multiuse vial to a beneficiary, Medicare
Part B will pay only for the amount of the drug actually administered, and any discarded amount
is not reimbursable. A multiuse vial contains more than one dose of medication, as labeled by
the manufacturer. Herceptin is packaged in multiuse vials of 440 milligrams and is a relatively
expensive 1 drug used to treat breast cancer that has spread to other parts of the body. Based on
prior audit work at outpatient providers, 2 we found that doses billed in multiples of the entire vial
size (e.g., 440 milligrams, 880 milligrams, etc.) may include amounts of discarded drug billed in
error. Medicare Part B and the beneficiaries are responsible only for the payment for the amount
of the drug actually administered.

OBJECTIVE

Our objective was to determine whether Medicare payments that National Government Services,
Inc. (NGS), made to physicians in Connecticut for full vials of Herceptin furnished during CYs
2009 through 2011 were correct.

BACKGROUND

The Medicare Program

The Medicare program provides health insurance for people aged 65 and over and those who are
disabled or have permanent kidney disease. The Centers for Medicare & Medicaid Services
(CMS) administers the program. CMS contracts with Medicare administrative contractors
(MAC) to process and pay Medicare claims submitted for physician services. NGS is the
Medicare contractor for Jurisdiction 13, which includes Connecticut.

Claims for Drugs

Medicare guidance requires physicians to submit accurate claims for Part B services. Each
submitted Medicare claim contains line items that detail each provided service. Physicians
should use the appropriate Healthcare Common Procedure Coding System (HCPCS) code for the
drug administered and report units of service in multiples of the units shown in the HCPCS
narrative description. Multiuse vials are not subject to payment for discarded amounts of the
drug. Multiuse vials are typically used for more than one date of service and can be stored for up
1
 Connecticut physicians were paid a total of approximately $8.4 million for Herceptin furnished during calendar
years (CY) 2009 through 2011. During this period, physicians were paid approximately $2, 258 for a full vial (440
milligrams) of Herceptin.
2
 For example, see Medicare Contractors’ Payments in Jurisdiction 14 For Full Vials of Herceptin Were Often
Incorrect (A-01-11-00539), August 17, 2012. Available online at
https://oig.hhs.gov/oas/reports/region1/11100539.pdf. Accessed March 8, 2013.


Medicare Payments to Connecticut Physicians for
Full Vials of Herceptin Were Generally Correct (A-01-12-00515)                                                      1
to 28 days. Therefore, a payment for an entire multiuse vial may include amounts of discarded
drug billed in error.

Herceptin

Herceptin is a monoclonal antibody, one of a group of drugs designed to attack specific cancer
cells. The manufacturer supplies the drug in a carton containing a multiuse vial of
440 milligrams of Herceptin and one 20-milliliter vial of bacteriostatic water for injection
(BWFI) containing a solution of 1.1 percent of benzyl alcohol as a preservative. A vial of
Herceptin, when reconstituted with BWFI and stored properly, can be used for up to 28 days.
When a patient is allergic to benzyl alcohol, sterile water without a preservative should be used
and any unused portion of the mixture discarded. The HCPCS code for Herceptin is J9355, with
a narrative description of “injection, trastuzumab 10mg.” An entire multiuse vial of 440
milligrams of reconstituted Herceptin when administered would be reported as 44 units for
Medicare billing.

HOW WE CONDUCTED THIS REVIEW

We used CMS’s National Claims History file to identify Part B line items which represented
payments to Connecticut physicians for entire vials of Herceptin furnished during CYs 2009
through 2011. We found 110 line items with unit counts of 44 or 88, totaling approximately
$259,578, which NGS paid to 21 physicians. We reviewed medical records to determine
whether each line item was billed correctly.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our scope and methodology.

                                    RESULTS OF AUDIT

The Medicare payments that NGS made to physicians in Connecticut for full vials of Herceptin
furnished during CYs 2009 through 2011 were generally correct. Of the 110 line items
reviewed, 107 were billed correctly. For the remaining 3 line items, physicians reported
incorrect units of service resulting in overpayments of $1,927. These overpayments have been
refunded. Consequently, this report contains no recommendations.




Medicare Payments to Connecticut Physicians for
Full Vials of Herceptin Were Generally Correct (A-01-12-00515)                                      2
                  APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered 110 line items for 44 or 88 units of Herceptin furnished during CYs 2009
through 2011, which represent billings equivalent to entire multiuse vials. These line items
represent $259,578 in Medicare payments to 21 Connecticut physicians. In this audit, we did not
review entire claims; rather, we reviewed only the Herceptin line items within the claims.

We limited our review of NGS’s internal controls to those that were applicable to the 110 line
items of service because our objective did not require an understanding of all internal controls
over the submission and processing of claims. Our review allowed us to establish reasonable
assurance of the authenticity and accuracy of the data obtained from CMS’s National Claims
History file, but we did not address the completeness of the file.

Our fieldwork was conducted from March 2012 through July 2012 and included contacting NGS
and all 21 physicians that received Medicare payments for the 110 line items.

METHODOLOGY

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   used CMS’s National Claims History file to identify Part B line items which represented
       payments to Connecticut physicians for entire vials of Herceptin furnished during CYs
       2009 through 2011;

   •   identified 110 line items with unit counts of 44 or 88;

   •   reviewed Common Working File records to determine whether any line items were
       adjusted prior to fieldwork;

   •   obtained medical records from the 21 physicians;

   •   reviewed the medical records the physicians furnished to determine whether each
       selected line item was billed correctly; and

   •   discussed the results of our review with NGS.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Medicare Payments to Connecticut Physicians for
Full Vials of Herceptin Were Generally Correct (A-01-12-00515)                                     3
